2311 Douglas Street
Omaha, Nebraska 68102-1214

rOCK
, LE

E-Mail Address:
contact@cocklelegalbriefs.com

Legal Briefs
Est. 1923

Web Site
www.cocklelegalbriefs.com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

No.
DAMON SIMON; PATRICE SIMON,
Petitioners,
v.
ROCHE DIAGNOSTICS CORPORATION,
Respondent
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify.that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point
for the footnotes, and this brief contains 8129 words, excluding the parts that are exempted.by
Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 6th day of October, 2021.
am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska
RENEE J. GOSS
My Comm. Exp. September 5, 2023

Notary Public

Affiant

41387

